The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Irving A. Williamson
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436



July 1, 2010                                                               OIG-HH-018


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final audit report
Examination and Confirmation of the Balance on the PP&E Account on the 2009
Financial Statement. In finalizing the report, we analyzed your comments on our draft
report and have included those comments in their entirety in Appendix A.

This report contains six recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to the auditors during this audit.

Sincerely,




Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission
                                            Audit Report


                                        TABLE OF CONTENTS
Results of Audit ............................................................................................. 1 

Problem Areas & Recommendations .......................................................... 1 

   Problem Area 1: Lack of Understanding of the Statement of Federal Financial
   Accounting Standards (SFFAS) Impact on the Procurement of Assets ......................... 1 
     Recommendation 1: That the Commission train all personnel responsible for
     making IUS investment decisions and managing projects in the requirements of
     SFFAS No.10............................................................................................................... 2 
     Recommendation 2: That the Commission conduct a data review of all
     procurements for the last five years and identify all transactions that were expensed
     and re-evaluate them to determine whether any should have been capitalized.......... 2 
     Recommendation 3: That the Commission establish a quality control procedure
     related to the data clean-up effort to ensure that all appropriate adjustments are
     analyzed for propriety and completeness.................................................................... 2 

   Problem Area 2: Lack of Reconciliation of the PP&E Account Balance ....................... 3 

   Problem Area 3: Asset Files Are Not Established and Maintained with Sufficient
   Documentation ................................................................................................................ 4 
     Recommendation 4: That the Commission implement procedures for establishing
     and maintaining asset files.......................................................................................... 5 
     Recommendation 5: That the Commission establish a standard for documenting
     asset files. .................................................................................................................... 5 
     Recommendation 6: That the Commission provide training to all applicable
     Commission personnel on the proper procedures for maintaining asset files............ 5 

Management Comments and Our Analysis ............................................... 5 

Objective, Scope, and Methodology ............................................................ 6 

Appendix A: Management Comments on Draft Report




OIG-AR-07-10                                                    -i-
                     U.S. International Trade Commission
                                  Audit Report


                                  Results of Audit

The purpose of this audit was to confirm the balance of the Plant, Property, and
Equipment (PP&E) account on the 2009 Financial Statement.

The USITC does not have a standardized process to identify, capitalize, reconcile, and
manage assets reported in the PP&E account. As a result, we were unable to validate the
costs reported for Internal-Use Software assets recorded in the PP&E account on the
2009 Financial Statement. Specifically, we found that:

      The Commission did not capitalize Internal-Use Software (IUS) in accordance
       with the Statement of Federal Financial Accounting Standards, No. 10,
       Accounting for Internal Use Software.
      The Commission did not evaluate acquisitions of assets at the time of purchase to
       determine proper presentation in the PP&E account on the financial statements.
      The Commission did not reconcile the assets in the PP&E account.
      The Commission did not maintain appropriate documentation in the asset files.

Assets and expenses on the 2009 balance sheet in the PP&E account could not be
substantiated. In addition, we identified three problem areas that contributed to our
inability to confirm these balances.




                   Problem Areas & Recommendations

                                     Problem Area 1:
   Lack of Understanding of the Statement of Federal Financial Accounting
           Standards (SFFAS) Impact on the Procurement of Assets


The USITC staff responsible for making IUS purchase decisions and tracking these
projects did not fully understand the requirements of SFFAS.

SFFAS No. 10 provides guidance regarding the types of cost elements to capitalize, the
timing and thresholds of capitalization, the amortization periods, the accounting for
impairment, and other guidance.

SFFAS No. 10 states that entities should capitalize the cost of software when the software
meets the criteria for general property, plant, and equipment. For internally developed
software, capitalized cost should include the full cost (direct and indirect cost) incurred
during the software development stage. These costs should be limited to costs incurred



OIG-AR-07-10                               -1-
                      U.S. International Trade Commission
                                   Audit Report

after management authorizes and commits to a computer software project and believes
that it is more likely than not that the project will be completed and the software will be
used to perform the intended function with an estimated service life of 2 years or more.
Costs incurred after final acceptance testing has been successfully completed should be
expensed.

The USITC staff responsible for making IUS purchase decisions and tracking these
projects did not fully understand the requirements of SFFAS No. 10. As a result, the
Commission did not track or identify IUS projects costs to ensure costs were captured. In
addition, the Commission does not have a standardized process to consistently identify,
capitalize, and report on assets.

The Commission is unable to validate and substantiate that all costs capitalized for its
Internal-Use Software assets met the requirements of SFFAS No. 10 and therefore the
Commission does not know the value of the assets in the PP&E account or if the
appropriate depreciation amounts have been expensed.

This audit identified two conditions previously reported in the Independent Auditor’s
Report on Internal Control for 2009 Financial Statements, OIG-AR-02-10:

              Lack of procedures to document and maintain records that support
               procurement decisions for all capitalized assets.

              Lack of procedures to ensure future projects are monitored by the program
               managers on an on-going basis throughout the fiscal year to ensure the
               timely and proper recording in the general ledger account.

Recommendation 1:

That the Commission train all personnel responsible for making IUS investment
decisions and managing projects in the requirements of SFFAS No.10.

Recommendation 2:

That the Commission conduct a data review of all procurements for the last five years
and identify all transactions that were expensed and re-evaluate them to determine
whether any should have been capitalized.

Recommendation 3:

That the Commission establish a quality control procedure related to the data clean-up
effort to ensure that all appropriate adjustments are analyzed for propriety and
completeness.




OIG-AR-07-10                                -2-
                     U.S. International Trade Commission
                                  Audit Report


                                    Problem Area 2:
              Lack of Reconciliation of the PP&E Account Balance


Periodic reconciliation of asset balances must be done to ensure assets are analyzed and
accounted for. Reconciliation should be done by the Office of Finance and include the
involvement and review of the Office of Procurement and the Office of Facilities
Management.

OMB A-136 states that periodic analyses, reconciliations, or comparisons of data should
be included as part of the regular assigned duties of personnel.

The Commission does not have policies and procedures specific to the reconciliation of
the PP&E account balances to ensure variances are corrected on a timely basis.

The PP&E account balances are not analyzed on a regular basis increasing the risk of
material misstatements being reported on the financial statements and not discovered in a
timely fashion by management.

The following three conditions were identified:

      Lack of procedures and coordination between the Office of Facilities
       Management (OFM) and the Office of Finance, to ensure assets are being
       accounted for, recorded in a timely fashion, and properly stated in the financial
       records.
      Lack of procedures to perform and document quarterly reconciliations of the
       PP&E account balances, between the fixed asset report and the accounting
       records, in order to analyze and support amounts reported on its financial
       statements.
      Lack of procedures to ensure that reconciling items are researched and resolved in
       a timely manner and that resolution of differences is clearly documented and
       supported.

All three conditions were previously reported in the Independent Auditor’s Report on
Internal Control for 2009 Financial Statements, OIG-AR-02-10. Management decisions
have been agreed upon to address the issues and final action is underway. No further
recommendations were identified in this area as a result of this audit.




OIG-AR-07-10                               -3-
                      U.S. International Trade Commission
                                   Audit Report


                                   Problem Area 3:
    Asset Files Are Not Established and Maintained with Sufficient Documentation



Several of the asset files the Commission provided were missing documentation to
support the following: the asset’s acquisition cost including purchase orders or invoices;
analysis, justification and rationale for estimates used when original cost documentation
was missing; and manual calculations including documentation used to support the
calculation plus justification and rationale used.

The Commission must maintain documentation for each asset recorded on its financial
records to support amounts, rationale, analysis, and approval.

OMB Circular A-123 states that reliability of financial reporting means that management
can reasonably make the following assertion: documentation for internal control, all
transactions, and other significant events is readily available for examination.

Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting for
Property, Plant and Equipment, states that all general property, plant and equipment shall
be reported at cost. Cost shall include all costs incurred to bring the property, plant, and
equipment to a form and location suitable for its intended use. For existing general
property, plant, and equipment; if historical cost information necessary to comply with
the recognition and measurement provisions has not been maintained, estimates are
required. Estimates shall be based on: cost of similar assets at the time of acquisition, or
current cost of similar assets discounted for inflation since the time of acquisition (i.e.,
deflating current costs to costs at the time of acquisition by general price index).

SFFAS 35, Estimating the Historical Cost of General Property, Plant, and Equipment,
states that although the measurement basis for valuing property, plant, and equipment
remains historical cost, reasonable estimates may be used to establish the historical cost
of property, plant, and equipment. Estimates may be based on: cost of similar assets at the
time of acquisition; current cost of similar assets discounted for inflation since the time of
acquisition (i.e., deflating current costs to costs at the time of acquisition by general price
index), or other reasonable methods.

Documentation must include, but is not limited to: documentation to support costs such
as invoices, purchase orders, contracts. If this documentation is not available, then
estimation method and documentation for the rationale used to calculate cost and
depreciation must be maintained. In addition, documentation to support receipt and
acceptance of assets, useful life, in-service date and salvage value must be maintained.

Complete asset files are not currently maintained. For example, some of the asset files
provided included handwritten calculations without documentation or justification to




OIG-AR-07-10                                 -4-
                     U.S. International Trade Commission
                                  Audit Report

support them; handwritten notes stating that invoices or purchase orders were not
available to support the costs but without estimates or documentation to support the
USITC’s decision to carry the asset on its financial records at the recorded amounts;
journal vouchers without detailed back-up documentation to support amounts or rationale
for the adjustment; and no evidence to support in-service date of assets. The Commission
does not accumulate in a central place all documents relevant to the procurement or
building of each asset.

The Commission does not have complete and accurate documentation to support the
PP&E account balances reported on the financial statements.

Recommendation 4:

That the Commission implement procedures for establishing and maintaining asset files.

Recommendation 5:

That the Commission establish a standard for documenting asset files.

Recommendation 6:

That the Commission provide training to all applicable Commission personnel on the
proper procedures for maintaining asset files.




              Management Comments and Our Analysis

On June 28, 2010, Chairman Deanna Tanner Okun provided management comments to
the draft audit report. The Chairman concurred with our assessment, and acknowledged
that the three problem areas identified in the report needed to be resolved and were now
being actively addressed by management.




OIG-AR-07-10                              -5-
                      U.S. International Trade Commission
                                   Audit Report


                    Objective, Scope, and Methodology
Objective
The objective of this audit was to confirm the balance of the PP&E account on the 2009
Financial Statement.

Scope
The scope of this audit was to review supporting documentation to substantiate the values
reported for assets in the balance of the PP&E account.

Methodology
We engaged the services of an independent public accounting firm to substantiate the
balance on the PP&E account and review the related internal controls such as, policies
and procedures to support the rationale for calculating and monitoring the values reported
in the PP&E account, and acquisition files to support capital planning decisions as
reported on the USITC’s 2009 balance sheet. The audit was limited in nature and
therefore would not necessarily identify all deficiencies in internal control over financial
reporting.

The auditors performed an examination of evidence to support the amounts for assets
recorded in the PP&E account on the 2009 financial statements. The auditors also
assessed the standards used to support the rationale and calculation of values reported for
assets recorded in the PP&E account.

The Office of Inspector General engaged the services of an Independent Public
Accountant who performed this audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that the audit be
planned and performed to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-07-10                                -6-
               U.S. International Trade Commission
                            Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-07-10
               U.S. International Trade Commission
                            Appendix A




OIG-AR-07-10
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
